FILED: April 1, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7772
(3:20-cv-003 06-MR)

WALTER TIMOTHY GAUSE
Petitioner - Appellant
v.
ERIC A. HOOKS, Secretary of Department of Public Safety
Defendant - Appellee

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

A

USCA4 Appeal: 20-7772

Doc: 12

Filed: 02/26/2021

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-7772
WALTER TIMOTHY GAUSE,
Petitioner - Appellant,
v.
ERIC A. HOOKS, Secretary of Department of Public Safety,
Defendant - Appellee.

Appeal from the United States District Court for the Western District of North Carolina, at
Charlotte. Martin K. Reidinger, Chief District Judge. (3:20-cv-00306-MR)
Decided: February 26, 2021

Submitted: February 23, 2021
Before MOTZ, KEENAN, and HARRIS, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Walter Timothy Gause, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

4

USCA4 Appeal: 20-7772

Doc: 12

Filed: 02/26/2021

Pg:2of2

PER CURIAM:
Walter Timothy Gause seeks to appeal the district court’s order dismissing his
28 U.S.C. § 2254 petition as an unauthorized, successive § 2254 petition. The order is not
appealable unless a circuit justice or judge issues a certificate of appealability.
See 28 U.S.C. § 2253(c)(1)(A). A certificate of appealability will not issue absent “a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
When, as here, the district court denies relief on procedural grounds, the prisoner must
demonstrate both that the dispositive procedural ruling is debatable and that the petition
states a debatable claim of the denial of a constitutional right. Gonzalez v. Thaler, 565 U.S.
134, 140-41 (2012) (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Gause has not made
the requisite showing. Accordingly, although we grant Gause’s motion to amend his
informal opening brief, we deny a certificate of appealability and dismiss the appeal.
We dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
DISMISSED

-5'4

2

THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
ASHEVILLE DIVISION
CIVIL CASE NO. 3:20-cv-00306-MR

WALTER TIMOTHY GAUSE,

)
)

Petitioner,

)

)
)

vs.

MEMORANDUM OF
DECISION AND ORDER

)

ERIK A. HOOKS, Secretary of
Department of Public Safety,

)
)
)

Respondent.

)

THIS MATTER is before the Court on initial review of the pro se
Petitioner’s § 2254 Petition for Writ of Habeas Corpus [Doc. 1]; Motion to
Proceed in Forma Pauperis [Doc. 2]; Motions to Amend [Doc. 6; Doc. 7];
Motion for Appointment of Counsel [Doc. 8]; “Motion for Judicial Plenary
Review De Novo” [Doc. 9]; Motion for Writ of Mandamus [Doc. 10]; and
Motion for Evidentiary Hearing [Doc. 11],
I.

BACKGROUND
Walter Timothy Gause (the “Petitioner”) is a prisoner of the State of

North Carolina who was convicted by a jury in Mecklenburg County Superior
Court on February 20, 2014 on of robbery with a dangerous weapon, assault
with a deadly weapon inflicting serious injury, and conspiracy to commit

Case 3:20-cv-00306-MR Document 12 Filed 11/12/20 Page 1 of 8

robbery with a dangerous weapon. State v. Gause. 772 S.E.2d 265, 2015
WL 1529828, at *1-2 (N.G. Ct. App.) (unpublished), disc, rev, denied. 776
S.E.2d 858 (2015) (Mem.).

The trial court sentenced Petitioner to

consecutive active sentences of 146-185 months imprisonment for the
robbery and conspiracy, convictions, and 59-80 months for the assault
conviction. Id. at *2. After seeking post-conviction relief in the state courts
the Petitioner filed a Petition for Writ of Habeas Corpus with this Court.
Gause v. Perry. No. 3:16-cv-00631-FDW, 2017 WL 581331, at *1 (W.D.N.C.
Feb. 13, 2017). On February 13, 2017, the Court entered an Order that
granted the Respondent’s Motion for Summary Judgment and denied the
Petition for Writ of Habeas Corpus, id.1 The Petitioner appealed, and the
Fourth Circuit Court of Appeals dismissed the Petitioner’s appeal on
September 20, 2017. Gause v. Perry, 697 F. App'x220 (4th Cir. 2017).
On August 2/2020, the Petitioner filed the present Petition for Writ of
Habeas Corpus.

[Doc. 1].

On the same date, the Petitioner filed an

application to proceed in forma pauperis. [Doc. 2], On September 25, 2020,
the Petitioner filed a Motion for Appointment of Counsel [Doc. 8],

On

September 16, 2020, the Petitioner filed a Motion for Writ of Mandamus.
[Doc..10],

1 The Honorable Frank D. Whitney presiding.
2
Case 3:20-cv-00306-MR Document 12 Filed 11/12/20 Page 2 of 8

V

II.

DISCUSSION
The Court first considers the Petitioner’s request to proceed in forma

pauperis [Doc. 2], Based on.the information provided by the Petitioner, the
Court is satisfied that Petitioner does not have sufficient resources with which
to pay the filing fee for this matter. Therefore, the Petitioner’s Motion to
Proceed in Forma Pauperis will be granted.
The Court next considers the Petitioner’s Motions to Amend. [Doc. 6;
Doc. 7], Under Federal Rule of Civil Procedure 15, a party may amend its
pleadings within 21 days of filing or with the Court’s leave, which should be
given freely “when justice so requires.” Because the Respondent has not
yet responded to the Petitioner’s habeas petition, the Court concludes that
no harm will come from allowing the Petitioner’s amendments. Accordingly,
the Petitioner’s Motions to Amend will be granted.
The Court turns next to the substance of the Petitioner’s habeas
petition, as amended. The Antiterrorism and Effective Death Penalty Act of
1996 (“AEDPA”) expressly limits a petitioner’s ability to attack the same
criminal judgment in multiple collateral proceedings. If a federal district court
denies or dismisses a state prisoner’s § 2254 petition with prejudice, the
prisoner generally may not file another habeas petition challenging the same
state criminal judgment unless he has obtained permission to do so from the
3
Case 3:20-cv-00306-MR Document 12 Filed 11/12/20 Page 3 of 8

!/

r'
appropriate federal court of appeals. See 28 U-.S.'C! § 2244(b)(3)(A); see also
Burton v. Stewart. 549 U.S. 147, 153 (2007) (holding that failure of petitioner
to obtain authorization to file a “second or successive” petition deprived the
district court of jurisdiction to consider the second or successive petition “in
the first place”). - As noted above, the Court has previously denied a § 2254 petition from
the Petitioner challenging his conviction.

Gause v. Perry. No. 3:16-cv-

00631-FDW, 2017 WL 581331, at *1 (W.D.N.C. Feb. 13, 2017).

In that

Order, the Court granted the respondent’s motion for summary judgment on
one of the Petitioner’s grounds for relief and concluded that the Petitioner’s
other basis for relief was procedurally defaulted,

jd. at *9.

That Order

constituted an adjudication on the merits. Shoup v. Bell & Howell Co.. 872
F.2d 1178, 1181 (4th Cir. 1989) (citations omitted) (noting that a summary
judgment dismissal is a final adjudication on. the merits under Fourth Circuit
case law); Harvey v. Horan. 278 F.3d 370. 380 (4th Cir. 2002) (stating that
“a dismissal for procedural default is a dismissal on the merits.”), abrogated
on other grounds by Skinner v. Switzer. 562 U.S. 521 (2011). Accordingly,
the Petitioner’s habeas petition is an unauthorized; successive petition under
§ 2244(b).
<

4
Case 3:20-cvT)0306-MR Document 12 Filed 11/12/20 Page 4.of 8

V

Pursuant to 28 U.S.C. § 2244(b)(3)(A), “[b]efore a second or
successive application permitted by this section is filed in the district court
the applicant shall move in the appropriate court of appeals for an order
authorizing the district court to consider the application.” Thus, the Petitioner
must first obtain an order from the United States Court of Appeals for the
Fourth Circuit before this Court will consider any successive petition under
28 U.S.C. § 2255.

The Petitioner has not shown that he has obtained

permission from the United States Court of Appeals for the Fourth Circuit to
file a successive petition.

See also 28 U.S.C. § 2255(h) (“[a] second or

successive motion must be certified as provided in section 2244 by a panel
of the appropriate court of appeals.”). Accordingly, this successive petition
must be dismissed.

See Burton v. Stewart. 549 U.S. 147, 153 (2007)

(holding that failure of petitioner to obtain authorization to file a “second or
successive” petition deprived the district court of jurisdiction to consider the
second or successive petition “in the first place.”).
With regard to the Petitioner’s Motion for Appointment of Counsel
[Doc. 8], there is no constitutional right to counsel in § 2254 proceedings.
See Pennsylvania v. Finley. 481 U.S. 551, 555 (1987). Under 18 U.S.C. §
3006A(a)(2)(B), however, a court may appoint counsel in a habeas
proceeding if it finds that “that the interests of justice so require.” See also
5
Case 3:20-cv-00306-MR Document 12 Filed 11/12/20 Page 5 of 8

e-yt>

:/

Rule 6(a) of the Rules Governing Section 2254 Proceedings (providing that
the court may authorize discovery for good cause and appoint an attorney to
assist in discovery). Because this matter will be'dismissed, the Court will
deny the Petitioner's request to appoint counsel.
Because the Court has disposed of theJiabeas petition, the Petitioner's
Motion for Writ of Mandamus [Doc. 10] is moot. See In re Dixon. 21 F. App'x
198, 198 (4th Cir. 2001). (“Because the district court has disposed of [the'
habeas] petition and closed the case on its docket, [the] petition for a writ of
mandamus is moot.”). As such, the Petitioner's Motion for Writ of Mandamus
will be denied.
Likewise, the Petitioner’s “Motion for Judicial Plenary Review De Novo”
[Doc. 9] and Motion for Evidentiary Hearing [Doc. 11] are moot because the
Petitioner’s habeas petition will be dismissed. Accordingly, those Motions
will be denied.
Pursuant to Rule 11(a) of the Rules Governing Section 2254 and
Section 2255 Cases, the Court declines to issue a certificate of appealability.
See 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell. 537 U.S. 322, 338 (2003)
(in order to satisfy § 2253(c), a petitioner must demonstrate that reasonable
jurists would find the district court's assessment of the constitutional claims
debatable or wrong): Slack v. McDaniel. 529 U.S. 473, 484 (2000) (when
6
Case 3:20-cv-00306-MR Document 12 Filed 11/12/20 Page 6 of 8

«

relief is denied on procedural grounds, a petitioner must establish both that
the dispositive procedural ruling is debatable and that the petition states a
debatable claim of the denial of a constitutional right).
ORDER
IT IS, THEREFORE, ORDERED that:
(1) The Petitioner’s Motion to Proceed in Forma Pauperis [Doc. 2] is
GRANTED.
(2) The Petitioner’s Motions to Amend [Doc. 6; Doc. 7] are GRANTED.
(3) The Petitioner’s § 2254 Petition for Writ of Habeas Corpus [Doc. 1]
is DISMISSED WITHOUT PREJUDICE as an unauthorized, successive
habeas petition pursuant to 28 U.S.C. § 2244(b)(3).
(4) The Petitioner’s Motion for Appointment of Counsel [Doc. 8] is
DENIED.
(5) The Petitioner’s Motion for Writ of Mandamus [Doc. 10] is DENIED.
(6) The Petitioner’s “Motion for Judicial Plenary Review De Novo” [Doc.
9] is DENIED.
(7)

The Petitioner’s Motion for Evidentiary Hearing [Doc. 11] is

DENIED.
(8) Pursuant to Rule 11 (a) of the Rules Governing Section 2254 Cases
this Court declines to issue a certificate of appealability.
7.
Case 3:20-cv-00306-MR Document 12 Filed 11/12/20 Page 7 of 8

«

The Clerk of Court is directed to close this civil action.
IT IS SO ORDERED.
Signed: November 11, 2020

Martin Reidinger
Chief United States District Judge

\

8
Case 3:20-cv-00306-MR Document 12 Filed 11/12/20 Page 8 of 8

